BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 40 copies
and 1 unbound copy of the foregoing Brief of the
National Association of Criminal Defense Lawyers as
Amici Curiae in Support of Petitioner in 19-75, James
Joseph Garner v. Colorado, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 14th day of August, 2019:
Jeffrey L. Fisher
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu

Counsel for Petitioner
L. Andrew Cooper
Office of the Colorado Attorney General
1300 Broadway St.
Denver, CO 80203
(720) 508-6465
andrew.cooper@coag.gov

Counsel for Respondent

: BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

, (800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

www.beckergallagher.com

KERSHNER, J.D.

Sean Hecker
Counsel of Record
Joshua Matz
Alexandra Conlon
Kaplan Hecker & Fink LLP
350 Fifth Avenue
Suite 7110
New York, NY 10118
(212) 763-0883
shecker@kaplanhecker.com
Jeffrey T. Greene
Co-chair, National Association of
Criminal Defense Lawyers
Amicus Committee
1660 L. Street, N.W.
Washington, D.C. 20036
(202) 872-8600
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 14, 2019.

Julie A!. Khshner
Becker 'Gillagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

